No. 19-161

3fn the Supreme Court of the @lniteb States
DEPARTMENT OF HOMELAND SECURITY, ET AL.,

Petitioners
V.

VIJAYAKUMAR 'THURAISSIGIAM,

Respondent.
ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT

CERTIFICATE OF COMPLIANCE
As required by Rule 33. l(h), I, Roy T. Englert, Jr., a member of the Bar of this
Court, hereby certify that the Brief of Amici Curiae Law Professors in Support of
Respondent contains 7979 words, excluding the parts of the brief that are exempted
by Rule 33.1(d). This certificate was prepared in reliance on the word-count
function of the word-processing system (Microsoft Word for Office 365) used to
prepare the document.
I declare under penalty of perjury that the foregoing is true and correct.

ROY T. ENGLERT, JR.

Counsel of Record

WENDY LIU
ROBBINS, RUSSELL, ENGLERT, ORSECK,
UNTEREINER & SAUBER LLP

2000 K Street, NW
Washington, DC 20006
(202) 775-4500
renglert@robbinsrussell.com

